                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington, D.C. 20230


July 27, 2010

The Honorable Barbara A. Mikulski
United States Senate
Washington, DC 20510

Dear Senator Mikulski:

This letter responds to your request for information regarding the leases of nine local Census
offices (LCOs) in the state of Maryland. In your March 10,2010, letter, you expressed concern
over the costs of the leases and requested that the Inspector General (OIG) of the General
Services Administration (GSA) and I look into this matter. Specifically, you asked for (I) an
independent assessment of the nine Maryland LCO leases to determine if the Census Bureau's
requirements for office space were reasonable and (2) a review of GSA's criteria for procuring
office space to ensure that the most cost-effective properties were selected.

In response to your request, my staff conducted a survey assessing the Census Bureau's role in
acquiring office space for the LCOs and the associated costs. We spoke with managers from the
Philadelphia Regional Census Center, who are responsible for decennial operations in the state of
Maryland, and reviewed documentation on the nine LCOs.

Overall, the Census Bureau and GSA worked together and appeared to follow their established
procedures to search, solicit, and acquire office space in the time allowed per the bureau's office
deployment schedule. However, we suggest that Census and GSA address the underlying
issues- such as short lease periods, time constraints, and unique space requirements that limited
the number of bidders during this decennial census-to mitigate potential challenges in acquiring
office space for the 2020 Census. Specifically, we found that the Census Bureau worked with
GSA to search for and assess potential LCO sites. In Maryland, GSA's solicitations to
prospective lessors generated few bids within the areas delineated by the Census Bureau for
LCOs. The lack of prospective lessors coupled with Census's tight deployment schedule meant
that there were few choices for LCO sites and insufficient time to solicit additional bids. The
problems in receiving an adequate number of bids led, in part, to the location of two LCOs in
Baltimore approximately one-half mile apart. Our detailed results are provided below.

Since our oversight is limited to the Department of Commerce, we did not assess GSA's criteria
and process for selecting the most cost-effective properties. The GSA OIG is in the process of
reviewing these issues,

Background on Local Census Offices (LCOs) and LCOs in Maryland

The Census Bureau operates 494 LCOs nationwide to manage its decennial census field
operations. In late 2008 and early 2009, the Census Bureau opened lSI local Census offices,
known as early local Census offices (ELCOs), to update the address and map database and the
locations of group quarters nationwide.! After the locations of residences were updated, the
ELCOs were transitioned to LCOs to conduct the ten decennial field operations. Between August
and December 2009, 344 additional LCOs were opened to conduct the ten decennial field
operations. 2 In 2008 and early 2009, the Census Bureau opened three ELCOs in Maryland,
located in West Baltimore, Frederick, and Largo. The Census Bureau later opened additional
LCOs in Catonsville, Easton, La Plata, Rockville, Towson, and East Baltimore-bringing the
total number oflocal Census offices in Maryland to nine.

How LCOs Leases Were Acquired: Coordination Between the Census Bureau and GSA

The acquisition of LCOs relied on coordination between the Census Bureau and GSA. To begin
the process, Census Bureau staff selected the "area of consideration" for the site of the LCO
within the geographic area in which the LCO would manage field operations. In determining the
area of consideration, the Census staff was required to consider factors including a site's location
within a congressional district, the size of the area to be managed, proximity to package delivery
routes, and access to public transportation and restaurants. Once the staff selected an area of
consideration, GSA had to find a site for the LCO within this area. The Census Bureau also
provided space requirements and specifications for a generic LCO to help GSA estimate lease
costs.

After this information was provided, GSA had approximately 8 months to search for sites,
conduct market surveys, solicit bids, and negotiate and award leases. 3 These tasks were carried
out by GSA and Equis Corporation, a real estate services company hired to assist with local
office space acquisition, with some participation by Census. As part of the search for sites,
Census and Equis staff independently surveyed vacant commercial office space within the area
of consideration. Based on information from these surveys, Equis formulated a list of sites for
formal market surveys and then Census, Equis, and GSA staff met with lessors to assess the
properties' suitability. Sites were rated on criteria such as location, parking, interior amenities,
and safety features. The results of market surveys were used to generate suitable candidates to
receive solicitations.

After the parties agreed on suitable candidates, GSA sent out solicitations for offer (SFO) to
potential lessors for each office, requesting formal bids.4 GSA selected the best offer and
negotiated with the lessor on acceptable lease terms. According to Census managers, Census was



I   The ELCOs conducted the address canvassing and group quarters validation operations to provide information
    used by Census to deliver questionnaires and send enumerators into the field during later operations. Address
    canvassing updated the Census Bureau's address and map database and was conducted between March and July
    2009; group quarters validation verified the location of group quarters nationwide and was conducted in September
    and October 2009. Generally, ELCOs covered the geographic areas of three or four individual LCOs.
2   The early local Census office in Puerto Rico that was used for address canvassing was included in the number of
  additional offices requiring renovations for use during 2010 field operations.
3 GSA followed this tight schedule because offices had to be leased and renovated on time so that Census's
 contractors could install information technology and telecommunications equipment in preparation for each
  office's opening.
" An SFO is a standard GSA lease form containing office space requirements, renovation costs, and the amounts for
  ren4 tenant improvements, and operating costs. Its contents become part or an LeO's lease.

                                                           2
not involved in negotiations on the office leases, although it was consulted to approve
concessions to lease terms (e.g., fewer than three parking spaces for the LCO).


Solicitations for Maryland LCOs Yielded Few Bids per Office

For five out of the nine LCOs in Maryland, GSA's solicitations to prospective lessors only
generated one qualified bid, including the solicitation for the East Baltimore LCO. s The La Plata
LCO received the most bids (three). Regional Census managers offered several possible
explanations for the lack of bidding on LCO leases. They explained that potential lessors,
particularly small-scale landlords, do not submit bids due to the complexity of the SFO, the
potential liability for not complying with SFO requirements, their inability to retain outside legal
counsel to review the SFO and assess risk, and their unwillingness to bid on a short-term lease
that may require significant tenant improvements. If only one bid was received per site, Census's
LCO deployment schedule allowed little time to conduct additional market surveys and send out
a second round of solicitations to attract additional qualified bids. In certain cases, the only
recourse was to move forward with the only bid received by GSA.

Significant Tenant Improvements Initially Paid by Lessors Could Have Deterred Bidders

Before occupying local offices, the Census Bureau usually required improvements such as
erecting walls, installing intrusion-detection systems, installing doors, and installing electrical
outlets. As shown in Table 1,6 tenant improvements constituted the second largest expense for
most Maryland LCO leases-an average of37 percent.) We did not analyze Census's space
requirements or the cost of the tenant improvements for each office. Therefore, we cannot assess
whether Census's space requirements or improvements were necessary, or whether some could
have been eliminated to reduce costs. However, the costs of the tenant improvements were
initially paid by the lessor and recouped only as part of the lease,s which may have deterred
potential lessors, particularly small-scale landlords. 9




, The offices that received only one qualified bid were Baltimore East, Catonsville, Easton, Frederick, and
  Rockville. For Baltimore East, the initial solicitation only generated one bid and during the subsequent solicitation,
  there were two bids but only one was within the area of consideration.
6 Table I breaks out lease costs per office by shell rent, tenant improvements, operating costs, and Public Buildings
  Service (PBS) fee. The total cost of each office covers the duration of the lease, which ranges between 16 and 25
  months. GSA negotiated lease tenos with lessors before making final awards and determined reasonable rent costs
  and tenant improvements. Shell rent represents the cost for the enveloping office space and excludes tenant
  improvements and operating costs; the PBS fee covers GSA's overhead expenses and is 5 percent of the total rent
  (shell rent, tenant improvements, and operating costs).
7   Tenant improvements for the Baltimore West LCO were paid by Census to GSA, which owns the building in
  which the office is located.
• GSA prescribed a maximum tenant allowance in each occupancy agreement and none of the offices exceeded their
  respective amounts. According to regional managers, GSA determines rents for each area and the cost of tenant
  improvements, which are based on Census's office space requirements.
, The leases in Maryland only ranged from 16 to 25 months, depending on whether the office functioned as an

  ELCO first or simply as an LCO.


                                                           3
Table 1. Rent per Local Census Office in Maryland
Local Census                                                                                                Average
Office                         Shell           Tenant         Operating                          Total      Monthly
(lease in months)              Rent      Improvements            Costs       PBS Fee             Cost         Costa
Baltimore East (16)      5306,553              5182,190         564,710           $27,673    5581,126       $36,320
Baltimore West (21)         88,093             '180,125         110.691                 0     378,909        18,043
Catonsville (16)           387,972               92,052          65,324            27,268     572,616        33,683
Easton (16)                236,000              184,269          28,000            22,413     47(;),682      29,418
Frederick (25)             209,046              204,989          62,365            23,820     500,220        20,009
La Plata (16)              268,000              163,908          39,360            23,563     494,831        30,927
Largo (24)                 129,108              196,740         133,847            22,930     482,625        20,109
Rockville (16)             237,626              157,592          78,936            23,708     497,862        31,116
Towson (16)                116,278              172,337          42,661            16,096     347,372        20,434
Source: U.S. Census Bureau
a Total cost divided by number of months in the lease.
b Total includes shell rent plus costs for joint-use space within the building.
'Tenant improvement costs were paid to GSA (the building owner), which hired      contractors to complete
    the improvements.


Lack of Qualified Bids Contributed to the Proximity of Two Local Census Offices in
Baltimore

The Census Bureau originally planned to open an ELCO in East Baltimore and an LCO in West
Baltimore. 10 This LCO site placcment would satisfy Census's criterion that, if possible, one local
Census office be placed in each con),,'fessional distrie!.11 Like many other solicitations for Census
office space, the initial solicitation for the East Baltimore ELCO yielded only one bid. GSA
found that bid unreasonable because the lessor was requesting rent that was triple the amount of
other local rental space. With time to acquire the space running out in Census's ELCO
deployment schedule, the search for space in East Baltimore was halted.

The bureau decided to open an ELCO in West Baltimore after GSA recommended the use of
leased backfill space in that part of the city.12 Negotiations with the lessor, from April to
September 2008, ultimately failed to result in a lease award because of problems with financing
tenant improvements, obtaining permits, and securing a contractor to perfonn the improvements.
GSA subsequently recommended a second backfill space-this time in a GSA-owned building­
a few blocks away and within the same area of consideration. This oftice space, at 103 South
Gay Street, ultimately became the Baltimore West ELCO, opening a little more than 2 months
behind schedule in March 2009.

The search for an LCO in East Baltimore was renewed in September 2008. After two rounds of
market surveys over the next several months, GSA sent out solicitations to two lessors and
received two bids. However, thc propcrty from one bidder was (ound to be outside the area of

10 Baltimore is divided into two areas of consideration. wilh Interstate 83 largely representing the boundary between
   the areas.
II The offices were to be located in MaryklOd con2ressional districls J and 7. respectively.
"- Backfill space refers to vacant government space­ available to new lenanlS.

                                                          4
consideration specified by Census staff and, therefore, was not considered. The second bidder,
for the property at 250 South President Street, was awarded the lease contract in April 2009
because, according to GSA, the lessor met the solicitation's requirements, was the only viable
offeror, and proposed a fair and reasonable rental price. This office, which is approximately one­
half mile from the West Baltimore location, was opened in November 2009.

Census and GSA Should Address Issues Resulting in Few Acceptable Bids on Maryland
LCO Leases to Mitigate Challenges in Acquiring 2020 Census Space

Our findings suggest that both Census and GSA worked together and appeared to follow their
established procedures to search, solicit, and acquire office space in the time allowed per the
bureau's office deployment schedule. However, we suggest that Census and GSA address the
underlying issues that limited the number of bidders during this decennial census to mitigate
potential challenges in acquiring office space for the 2020 Census.

We are sending identical letters to Senator Benjamin L. Cardin and Representatives John P.
Sarbanes, C.A. Dutch Ruppersberger, and Frank M. Kratovil. If I can be of further assistance,
please contact me at (202) 482-4661.


Sincerely,




1~>~




                                                 5

                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. O.c. 20230


July 28. 2010

The Honorable Benjamin L. Cardin
United States Senate
Washington. DC 20510

Dear Senator Cardin:

This letter responds to your request for information regarding the leases of nine local Census
offices (LCOs) in the state of Maryland. In your March 10.20 I O. lener. you expressed concern
over the costs of the leases and requested that the Inspector General (OIG) of the General
Services Administration (GSA) and I look into this maner. Specifically. you asked for (I) an
independent assessment of the nine Maryland LCO leases to determine if the Census Bureau's
requirements for office space were reasonable and (2) a review of GSA's criteria for procuring
office space to ensure that the most cost-effective properties were selected.

In response to your request. my staff conducted a survey assessing the Census Bureau's role in
acquiring office space for the LCOs and the associated costs. We spoke with managers from the
Philadelphia Regional Census Center. who are responsible for decennial operations in the state of
Maryland. and reviewed documentation on the nine LCOs.

Overall. the Census Bureau and GSA worked together and appeared to follow their established
procedures to search. solicit, and acquire office space in the time allowed per the bureau's office
deployment schedule. However. we suggest that Census and GSA address the underlying
issues- such as short lease periods. time constraints. and unique space requirements that limited
the number of bidders during this decennial census-to mitigate potential challenges in acquiring
office space for the 2020 Census. Specifically. we found that the Census Bureau worked with
GSA to search for and assess potential LCO sites. In Maryland, GSA's solicitations to
prospective lessors generated few bids within the areas delineated by the Census Bureau for
LCOs. The lack of prospective lessors coupled with Census's tight deployment schedule meant
that there were few choices for LCO sites and insufficient time to solicit additional bids. The
problems in receiving an adequate number of bids led. in part, to the location of two LCOs in
Baltimore approximately one-half mile apart. Our detailed results are provided below.

Since our oversight is limited to the Department of Commerce. we did not assess GSA's criteria
and process for selecting the most cost-effective properties. The GSA OIG is in the process of
reviewing these issues.

Background on Local Census Officcs (LCOs) and LCOs in Maryland

The Census Bureau operates 494 LCOs nationwide to manage its decennial census field
operations. In late 2008 and early 2009. the Census Bureau opened 151 local Census offices.
known as early local Census offices (ELCOs). to update the address and map database and the
locations of group quarters nationwide.' After the locations of residences were updated, the
ELCOs were transitioned to LCOs to conduct the ten decennial field operations. Between August
and December 2009, 344 additional LCOs were opened to conduct the ten decerU1ial field
operations. 2 In 2008 and early 2009. the Census Bureau opened three ELCOs in Maryland.
located in West Baltimore. Frederick. and Largo. The Census Bureau later opened additional
LCOs in Catonsville. Easton, La Plata, Rockville. Towson. and East Baltimore-bringing the
total number of local Census offices in Maryland to nine.

How LCOs Leases Were Acquired: Coordination Between the Census Bureau and GSA

The acquisition of LCOs relied on coordination between the Census Bureau and GSA. To begin
the process, Census Bureau staff selected the "area of consideration" for the site of the LCO
within the geographic area in which the LCO would manage field operations. In determining the
area of consideration. the Census staff was required to consider factors including a site's location
within a congressional district, the size of the area to be managed. proximity to package delivery
routes, and access to public transportation and restaurants. Once the staff selected an area of
consideration. GSA had to find a site for the LCO within this area. The Census Bureau also
provided space requirements and specifications lor a generic LCO to help GSA estimate lease
costs.

After this information was provided. GSA had approximately 8 months to search for sites,
conduct market surveys, solicit bids, and negotiate and award leases'> These tasks were carried
out by GSA and Equis Corporation. a real estate services company hired to assist with local
office space acquisition. with some participation by Census. As part of the search for sites,
Census and Equis staff independently surveyed vacant commercial office space within the area
of consideration. Based on information from these surveys. Equis formulated a list of sites for
formal market surveys and then Census. Equis. and GSA staff met with lessors to assess the
properties' suitability. Sites were rated on criteria such as location. parking, interior amenities,
and safety features. The results of market surveys were used to generate suitable candidates to
receive solicitations.

After the parties agreed on suitable candidates. GSA sent out solicitations for offer (SFO) to
potential lessors for each office, requesting formal bids! GSA selected the best offer and
negotiated with the lessor on acceptable lease terms. According to Census managers, Census was



1  The ELCOs conducted the address canvassing and group quarters validation operations to provide information
   used by Census to deliver questionnaires and send enumerators into the field during later operations. Address
   canvassing updated the Census Bureau's address and map database and was conducted between March and July
   2009; group quarters validation verified the location of group quarters nationwide and was conducted in September
   and October 2009. Generally. ELCOs covered the geographic areas of three or fouf individual LCOs.
:! The early local Census office in Puerto Rico that was used for address canvassing was included in the number of
   additional offices requiring renovations for use during 20 I 0 field operations.
'GSA followed this tight schedule because offices had to be leased and renovated on time so that Census's
   contractors could install information technology and telecommunications equipment in preparation for each
   office's opening.
.. An SFO is a standard GSA lease form containing oftice space requirements. renovation costs. and the amounts for
   rent, tenant improvements. and operating COSIS. Its conteI1lS become pan of an LCO's lease.

                                                         2
not involved in negotiations on the office leases, although it was consulted to approve
concessions to lease terms (e.g., fewer than three parking spaces for the LCO).


Solicitations for Maryland LCOs Yielded Few Bids per Office

For five out of the nine LCOs in Maryland. GSA's solicitations to prospective lessors only
generated one qualified bid, including the solicitation for the East Baltimore LC0 5 The La Plata
LCO received the most bids (three). Regional Census managers offered several possible
explanations for the lack of bidding on LCO leases. They explained that potential lessors,
particularly small-scale landlords, do not submit bids due to the complexity of the SFO, the
potential liability for not complying with SFO requirements, their inability to retain outside legal
counsel to review the SFO and assess risk. and their unwillingness to bid on a short-term lease
that may require significant tenant improvements. If only one bid was received per site, Census's
LCO deployment schedule allowed little time to conduct additional market surveys and send out
a second round of solicitations to attract additional qualified bids. In certain cases, the only
recourse was to move forward with the only bid received by GSA.

Significant Tenant Improvements Initially Paid by Lessors Could Have Deterred Bidders

Before occupying local offices, the Census Bureau usually required improvements such as
erecting walls, installing intrusion-detection systems, installing doors. and installing electrical
outlets. As shown in Table 1,6 tenant improvements constituted the second largest expense for
most Maryland LCO leases-an average of37 percent. 7 We did not analyze Census's space
requirements or the cost of the tenant improvements for each office. Therefore, we cannot assess
whether Census's space requirements or improvements were necessary. or whether some could
have been eliminated to reduce costs. However, the costs of the tenant improvements were
initially paid by the lessor and recouped only as part of the lease,s which may have deterred
potential lessors, particularly small-scale landlords 9




5 The offices that received only one qualified bid were Baltimore East, Catonsville. Easton, Frederick, and
  Rockville. For Baltimore East. the initial solicitation only generated Olle bid and during the subsequent solicitation,
  there were two bids but only one was within the area orconsideration.
6 Table 1 breaks out lease costs per office by shell rent. tenant improvements. operating costs. and Public Buildings
  Service (PBS) fee. The total cost of each office covers the duration of the lease. which ranges between 16 and 25
  months. GSA negotiated lease terms with lessors before making final awards and determined reasonable rent costs
  and tenant improvements. Shell rent represents the cost for the enveloping office space and excludes tenant
  improvements and operating costs; the PBS fee covers GSA's overhead expenses and is 5 percent of the total rent
  (shell rent, tenant improvements. and operming costs).
7 Tenant improvements for the Baltimore West LCO were paid by Census to GSA. which owns the building in
  which the office is locmed.
8 GSA prescribed a maximum tenant allowance in each occupancy agreement and none of the offices exceeded their
  respective amounts. According to regional managers, GSA determines rents for each area and the cost oftenam
  improvements. which are based on Census's office space requirements.
9 The leases in Maryland only ranged from 16 to 25 1110nths. depending on whether the office functioned as an
  ELCO first or simply as an LCO.
  Table I. Rellt per Local Cellsus Office ill Maryland
  Local Census                                                                                                                                                                Average
  Office                                             Shell                           Tenant Operating                                                              Total      Monthly
   lease in months                                   Rent                     1m rovements                        Costs PBS Fee                                     Cost         Cost"
f-.;::B",:al~ti::.:m:::o::.;re~E:;.as:::.:t7';';;16C!-;-_~$~30:o:6?-.5;5;:;3:-_ _.:;:S718=:2".,1.;:9;;0C-_~S764""':,.71::.:0:----:S:::.:2~7~,6::..:7..;3:...,,
                                                                                                                                                            $581,126           $36,320
   Baltimore West 21                                       88,093                  '180,125                   110,691                               0          3.7~!~=:-'-;~1;'::8:'-:,043:=:':=-I
   Catonsville 16                                       387,972                       92,052                     65,324                   27,268               572,618 _-..;;33=,,6::;:8;:;3:-1
   Easton (16)                                          236,000                     184,269                      28,000                   22,413               470,682,_ _-=29:,,4-:-:1;,:;8:-1
   Frederick 25                                         209,046                     204,989                      62,365                   23,820               500,220_.-;2;::0",,009=-1
   La Plata 16                                          268,000                     163,908                      39,360                   23,563               494,831                30,927
   Lar 0 24                                             129,108                     196,740                    133,847                    22,930               482,!i25---:2~0"',1~09:=-1
   Rockville 16                                         237,626                     157,592                      78,936                   23,708               497,862                31,116
   Towson 16                                            116,278                     172,337                      42,661                   16,096               347372                 20434
  Source: U.S. Census Bureau
  • Total cost divided by number of months in the lease.

  b Total includes shell rent plus costs for joint-use space within the building.

  'Tenant improvement costs were paid to GSA (the building owner), which hired contractors to complete

    the im rovements.



  Lack of Qualified Bids Contributed to the Proximity of Two Local Census Offices in
  Baltimore

  The Census Bureau originally planned to open an ELCa in East Baltimore and an LCa in West
  Baltimore. 10 This LCa site placement would satisfy Census's criterion that, if possible, one local
  Census office be placed in each congressional district. I 1 Like many other solicitations for Census
  office space, the initial solicitation for the East Baltimore ELCa yielded only one bid. GSA
  found that bid unreasonable because the lessor was requesting rent that was triple the amount of
  other local rental space. With time to acquire the space running out in Census's ELCa
  deployment schedule. the search for space in East Baltimore was halted.

  The bureau decided to open an ELCa in West Baltimore after GSA recommended the use of
  leased backfill space in that part of the city.12 Negotiations with the lessor, from April to
  September 2008, ultimately failed to result in a lease award because of problems with financing
  tenant improvements, obtaining permits. and securing a contractor to perform the improvements.
  GSA subsequently recommended a second backfill space-this time in a GSA-owned building­
  a few blocks away and within the same area of consideration. This office space. at 103 South
  Gay Street, ultimately became the Baltimore West ELCa, opening a little more than 2 months
  behind schedule in March 2009.

  The search for an Lea in East Baltimore was renewed in September 2008. After two rounds of
  market surveys over the next several months, GSA sent out solicitations to two lessors and
  received two bids. However, the property from one bidder was found to be outside the area of

   10   Baltimore is divided into two areas of consideration. with Interstate 83 largely representing the boundary between
        the areas.
   II   The offices were 1O be located in Maryland congressional districts 3 and 7, respectively.
   12   Backfill space refers to vacant government space available to new tenants.


                                                                                               4
consideration speci fied by Census staff and. therefore. was not considered. The second bidder.
for the property at 250 South President Streel. was awarded the lease contract in April 2009
because, according to GSA. the lessor met the solicitation's requirements. was the only viable
offeror, and proposed a fair and reasonable rental price. This office, which is approximately one­
half mile from the West Baltimore location. was opened in November 2009.

Census and GSA Should Address Issues Resulting in Few Acceptable Bids on Maryland
LCO Leases to Mitigate Challenges in Acquiring 2020 Census Space

Our findings suggest that both Census and GSA worked together and appeared to follow their
established procedures to search. solicil. and acquire office space in the time allowed per the
bureau's office deployment schedule. However. we suggest that Census and GSA address the
underlying issues that limited the number of bidders during this decennial census to mitigate
potential challenges in acquiring office space for the 2020 Census.

We are sending identical letters to Senator Barbara A. Mikulski and Representatives John P.
Sarbanes. c.A. Dutch Ruppersberger, and Frank M. Kratovil. If I can be of further assistance.
please contact me at (202) 482-4661.


Sincerely,




Todd J. Zinser




                                                 5

                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington, D.C. 20230

July 28, 20 I0

The Honorable John P. Sarbanes
United States Representatives
Washington, DC 20515

Dear Representative Sarbanes:

This letter responds to your request for information regarding the leases of nine local Census
offices (LCOs) in the state of Maryland. In your March 10.2010, letter. you expressed concern
over the costs of the leases and requested that the Inspector General (OIG) of the General
Services Administration (GSA) and I look into this matter. Specifically. you asked for (1) an
independent assessment of the nine Maryland LCO leases to determine if the Census Bureau's
requirements for office space were reasonable and (2) a review of GSA' s cri teria for procuring
office space to ensure that the most cost-effective properties were selected.

In response to your request. my staff conducted a survey assessing the Census Bureau's role in
acquiring office space for the LCOs and the associated costs. We spoke with managers from the
Philadelphia Regional Census Center. who are responsible for decennial operations in the state of
Maryland. and reviewed documentation on the nine LCOs.

Overall. the Census Bureau and GSA worked together and appeared to follow their established
procedures to search. solicit. and acquire office space in the time allowed per the bureau's office
deployment schedule. However. we suggest that Census and GSA address the underlying
issues- such as short lease periods. time constraints. and unique space requirements that limited
the number of bidders during this decennial census-to mitigate potemial challenges in acquiring
office space for the 2020 Census. Specifically. we found that the Census Bureau worked with
GSA to search for and assess potential LCO sites. In Maryland, GSA's solicitations to
prospective lessors generated few bids within the areas delineated by the Census Bureau for
LCOs. The lack of prospective lessors coupled with Census's tight deployment schedule meant
that there were few choices for LCO sites and insufficiem time to solicit additional bids. The
problems in receiving an adequate number of bids led. in part. to the location of two LCOs in
Baltimore approximately one-half mile apart. Our detailed results are provided below.

Since our oversight is limited to the Department of Commerce. we did not assess GSA's criteria
and process for selecting the most cost-effective properties. The GSA OIG is in the process of
reviewing these issues.

Background on Local Census Offices (LCOs) and LCOs in Maryland

The Census Bureau operates 494 LCOs nationwide to manage its decennial census field
operations. In late 2008 and early 2009. the Census Bureau opened 151 local Census offices.
known as early local Census offices (ELCOs). to update the address and map database and the
locations of group quarters nationwide. I After the locations of residences were updated. the
ELCOs were transitioned to LCOs to conduct the ten decennial field operations. Between August
and December 2009,344 additional LCOs were opened to conduct the ten decennial field
operations 2 In 2008 and early 2009. the Census Bureau opened three ELCOs in Maryland,
located in West Baltimore, Frederick. and Largo. The Census Bureau later opened additional
LCOs in Catonsville, Easton. La Plata. Rockville. Towson, and East Baltimore-bringing the
total number of local Census offices in Maryland to nine.

How LCOs Leases Were Acquired: Coordination Between the Census Bureau and GSA

The acquisition of LCOs relied on coordination between the Census Bureau and GSA. To begin
the process. Census Bureau staff selected the "area of consideration" for the site of the LCO
within the geographic area in which the LCO would manage field operations. In determining the
area of consideration. the Census staff was required to consider factors including a site' s location
within a congressional district. the size of the area to be managed. proximity to package delivery
routes, and access to public transponation and restaurants. Once the staff selected an area of
consideration, GSA had to find a site for the LCO within this area. The Census Bureau also
provided space requirements and specifications for a generic LCO to help GSA estimate lease
costs.

After this information was provided. GSA had approximately 8 months to search for sites,
conduct market surveys, solicit bids, and negotiate and award leases 3 These tasks were carried
out by GSA and Equis Corporation, a real estate services company hired to assist with local
office space acquisition, with some participation by Census. As part of the search for sites,
Census and Equis staff independently surveyed vacant commercial office space within the area
of consideration. Based on infomlation from these surveys. Equis formulated a list of sites for
fomlal market surveys and then Census. Equis. and GSA staff met with lessors to assess the
properties' suitability. Sites were rated on criteria such as location. parking. interior amenities.
and safety features. The results of market surveys were used to generate suitable candidates to
receive solicitations.

After the panies agreed on suitable candidates. GSA sent out solicitations for offer (SFO) to
potential lessors for each office, requesting formal bids.~ GSA selected the best offer and
negotiated with the lessor on acceptable lease terms. According to Census managers, Census was



I	 The   ELCOs conducted the address canvassing and group quarters validation operations to provide information
   used by Census to deliver questionnaires and send enumerators into the field during later operations. Address
   canvassing updated the Census Bureau's address and map database and was conducted between March and July
   2009: group quarters validation verified the location of group quarters nationwide and was conducted in September
   and October 2009. Generally. ELCOs covered Ihe geographic areas of three or four individual LCOs.
 2 The early local Census office in Pueno Rico that was lIsed for address canvassing was included in the number of
   additional offices requiring renovations for use during 20 I0 field operations.
.; GSA followed this tight schedule because offices had to be leased and renovated on time so that Census's
   contractors could install information technology and telecommunications equipment in preparation for each
   office's opening.
-l An SFO is a standard GSA lease form containing office space requirements. renovation costs. and the amounts for

   rent. tenant improvements. and operating costs. Its contents become pan of an LCO's lease.

                                                         2
not involved in negotiations on the office leases. although it was consulted to approve
concessions to lease terms (e.g., fewer than three parking spaces for the LCO).


Solicitations for Maryland LCOs Yielded Few Bids per Office

For five out of the nine LCOs in Maryland, GSA's solicitations to prospective lessors only
generated one qualified bid, including the solicitation for the East Baltimore LCO s The La Plata
LCO received the most bids (three). Regional Census managers offered several possible
explanations for the lack of bidding on LCO leases. They explained that potential lessors,
particularly small-scale landlords, do not submit bids due to the complexity of the SFO, the
potential liability for not complying with SFO requirements, their inability to retain outside legal
counsel to review the SFO and assess risk, and their unwillingness to bid on a short-term lease
that may require significant tenant improvements. If only one bid was received per site, Census's
LCO deployment schedule allowed little time to conduct additional market surveys and send out
a second round of solicitations to attract additional qualified bids. In certain cases. the only
recourse was to move forward with the only bid received by GSA.

Significant Tenant Improvements Initially Paid by Lessors Could Have Deterred Bidders

Before occupying local offices, the Census Bureau usually required improvements such as
erecting walls, installing intrusion-detection systems, installing doors, and installing electrical
outlets. As shown in Table 1,6 tenant improvements constituted the second largest expense for
most Maryland LCO leases-an average 01'37 percent. 7 We did not analyze Census's space
requirements or the cost of the tenant improvements for each office. Therefore, we cannot assess
whether Census's space requirements or improvements were necessary, or whether some could
have been eliminated to reduce costs. However, the costs of the tenant improvements were
initially paid by the lessor and recouped only as pan of the lease,8 which may have deterred
potential lessors, panicularly small-scale landlords 9




5   The offices that received only one qualified bid were Baltimore East. Catonsville. Easton, Frederick, and
    Rockville. For Baltimore East, the initial solicitation only generated one bid and during the subsequent solicitation.
    there were two bids but only one was within the area of consideration.
6 Table I breaks out lease costs per office by shell relll. tenant improvements, operating costs, and Public Buildings
 Service (PBS) fee. The total cost of each office covers the duration of the lease. which ranges between 16 and 25
  months. GSA negotiated lease terms with lessors before making final awards and determined reasonable rent costs
  and tenant improvements. Shell rent represents the cosI for the enveloping office space and excludes tenant
  improvements and operating costs; the PBS fee covers GSA's overhead expenses and is 5 percent of the total rent
  (shell rent, tenant improvements. and operating costs).
7 Tenant improvements for the Baltimore West LCO \vere paid by Census to GSA, which owns the building in

    which the office is located.
8 GSA prescribed a maximum tenam allowance in each occupancy agreement and none of the offices exceeded their
  respective amounts. According 10 regional managers, GSA determines rents for each area and the cost of tenant
  improvements. which are based on Census's office space requirements.
9 The leases in Maryland only ranged ITom 16 to 15 months. depending on whether the office functioned as an

    ELCO first or simply as an LCO.

                                                              3
Table I. Rent per Local Cenms Office in Maryland
Local Census                                                                                               Average
Office                            Shell               Tenant      Operating                     Total      Monthly
(lease in months)                  Rent Improvements                    Costs   PBS Fee         Cost           Cost"
Baltimore East (16)           $306,553              $182,190         $64,710     $27,673 L $581,126         $36,320
Baltimore West (211             "88,093             '180,125         110,691           o ~78,909             18,043
Catonsville (16)               387,972                 92,052          65,324     27,268  r 572,616          33.683
Easton (16)                    236,000               184,269           28,000     22,413    ,,!70.682        29,418
Frederick (25)                 209,046               204,989           62,365     23,820 L 500.22~           20.009
La Plata 116)                  268,000               163,908           39,360     23,563 _~94,831            30,927
Largo (241                     129,108               196,740         133,847      22,930    482,625          20,109
Rockville (16)                 237,626               157,592           78,936     23,708    497,862          31.116
Towson (16)                    116,278               172,337           42,661     16,096    347372           20,434
SOllree: U.S. Census Bureau                                                                                             I
'Total cost divided by number of months in the lease.
b Total includes shell rent plus costs for joint-use space within the building.
'Tenant improvement costs were paid to GSA (the building owner). which hired contractors to complete
  the improvements.



Lack of Qualified Bids Contributed to the Proximity of Two Local Census Offices in
Baltimore

The Census Bureau originally planned to open an ElCa in East Baltimore and an lCa in West
Baltimore. 10 This lca site placement would satisfy Census's criterion that, if possible, one local
Census office be placed in each congressional dislrict. 11 like many other solicitations for Census
office space, the initial solicilation for the Easl Baltimore Elca yielded only one bid. GSA
found that bid unreasonable because the lessor was requesting rent that was triple the amount of
other local rental space. With time to acquire the space running out in Census's ElCa
deployment schedule, the search for space in East Baltimore was halted.

The bureau decided to open an ELCa in West Baltimore after GSA recommended the use of
leased backfill space in that part of the city. 12 Negotiations with the lessor, from April to
September 2008, ultimately failed to result in a lease award because of problems with financing
tenant improvements, obtaining permits, and securing a contractor to perform the improvements.
GSA subsequently recommended a second backfill space-this time in a GSA-owned building­
a few blocks away and within the same area of consideration. This office space, at 103 South
Gay Street, ultimately became the Baltimore West ElCa. opening a little more than 2 months
behind schedule in March 2009.

The search for an LCa in East Baltimore was renewed in September 2008. After two rounds of
market surveys over the next several months, GSA sent out solicitations to two lessors and
received two bids. However, the property from one bidder was found to be outside the area of

10 Baltimore is divided into two areas of consideration. with Interstate 83 largely representing the boundary between
   the areas.
11 The offices were to be located in Maryland congressional districts 3 and 7, respectively.
12 Backfill space refers to vacant government space available to new tenants.




                                                         4
consideration speci fied by Census staff and, therefore, was not considered. The second bidder,
for the property at 250 South President Street, was awarded the lease contract in April 2009
because, according to GSA, the lessor met the solicitation's requirements, was the only viable
offeror, and proposed a fair and reasonable rental price. This office, which is approximately one­
half mile from the West Baltimore location, was opened in November 2009.


Census and GSA Should Address Issues Resulting in Few Acceptable Bids on Maryland
LCO Leases to Mitigate Challenges in Acquiring 2020 Census Space

Our findings suggest that both Census and GSA worked together and appeared to follow their
established procedures to search, solicit. and acquire office space in the time allowed per the
bureau's office deployment schedule. However, we suggest that Census and GSA address the
underlying issues that limited the number of bidders during this decennial census to mitigate
potential challenges in acquiring office space for the 2020 Census.

We are sending identical letters to Senators Barbara A. Mikulski and Benjamin L. Cardin and
Representatives CA. Dutch Ruppersberger and Frank M. Kratovil. Ifl can be of further
assistance, please contact me at (202) 482-4661.


Sincerely,




Todd J. Zinser




                                                 5

                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington, D.C. 20230


July 28, 20 I0

The Honorable C.A. Dutch Ruppersberger
United States Representatives
Washington. DC 20515

Dear Representative Ruppersberger:

This letter responds to your request for information regarding the leases of nine local Census
offices (LCOs) in the state of Maryland. In your March 10,20 I O. letter, you expressed concern
over the costs of the leases and requested that the Inspector General (OIG) of the General
Services Administration (GSA) and I look into this matter. Specifically, you asked for (I) an
independent assessment of the nine Maryland LCO leases to determine if the Census Bureau's
requirements for office space were reasonable and (2) a review of GSA's criteria for procuring
office space to ensure that the most cost-effective properties were selected.

In response to your request, my staff conducted a survey assessing the Census Bureau's role in
acquiring office space for the LCOs and the associated costs. We spoke with managers from the
Philadelphia Regional Census Center, who are responsible for decennial operations in the state of
Maryland, and reviewed documentation on the nine LCOs.

Overall, the Census Bureau and GSA worked together and appeared to follow their established
procedures to search, solicit, and acquire offIce space in the time allowed per the bureau's office
deployment schedule. However, we suggest that Census and GSA address the underlying
issues- such as short lease periods. time constraints, and unique space requirements that limited
the number of bidders during this decennial census-to mitigate potential challenges in acquiring
office space for the 2020 Census. Specifically, we found that the Census Bureau worked with
GSA to search for and assess potential LCO sites. In Maryland. GSA's solicitations to
prospective lessors generated few bids within the areas delineated by the Census Bureau for
LCOs. The lack of prospective lessors coupled with Census's tight deployment schedule meant
that there were few choices for LCO sites and insufficient time to solicit additional bids. The
problems in receiving an adequate number of bids led, in part. to the location of two LCOs in
Baltimore approximately one-half mile apart. Our detailed results are provided below.

Since our oversight is limited to the Department of Commerce. we did not assess GSA's criteria
and process for selecting the most cost-effective properties. The GSA OIG is in the process of
reviewing these issues.


Background on Local Census Offices (LCOs) and LCOs in Maryland

The Census Bureau operates 494 LCOs nationwide to manage its decennial census field
operations. In late 2008 and early 2009, the Census Bureau opened 151 local Census offices,
known as early local Census offices (ELCOs). to update the address and map database and the
locations of group quarters nationwide.' After the locations of residences were updated, the
ELCOs were transitioned to LCOs to conduct the ten decennial field operations. Between August
and December 2009,344 additional LCOs were opened to conduct the ten decennial field
operations 2 In 2008 and early 2009. the Census Bureau opened three ELCOs in Maryland.
located in West Baltimore, Frederick, and Largo. The Census Bureau later opened additional
LCOs in Catonsville, Easton, La Plata. Rockville. Towson. and East Baltimore-bringing the
total number of local Census offices in Maryland to nine.


How LCOs Leases Were Acquired: Coordination Between thc Census Bureau and GSA

The acquisition of LCOs relied on coordination between the Census Bureau and GSA. To begin
the process. Census Bureau staff selected the "area of consideration" for the site of the LCO
within the geographic area in which the LCO would manage field operations. In determining the
area of consideration. the Census staff was required to consider factors including a site's location
within a congressional district. the size of the area to be managed. proximity to package delivery
routes, and access to public transportation and restaurants. Once the staff selected an area of
consideration, GSA had to find a site for the LCO within this area. The Census Bureau also
provided space requirements and specifications for a generic LCO to help GSA estimate lease
costs.

After this information was provided, GSA had approximately 8 1110nths to search for sites,
conduct market surveys, solicit bids. and negotiate and award leases 3 These tasks were carried
out by GSA and Equis Corporation. a real estate services company hired to assist with local
office space acquisition, with some participation by Census. As part of the search for sites.
Census and Equis staff independently surveyed vacant commercial office space within the area
of consideration. Based on information from these surveys. Equis formulated a list of sites for
formal market surveys and then Census. Equis. and GSA staff met with lessors to assess the
properties' suitability. Sites were rated on criteria such as location. parking, interior amenities.
and safety features. The results of market surveys were used to generate suitable candidates to
receive solicitations.

After the parties agreed on suitable candidates. GSA sent out solicitations for offer (SFO) to
potential lessors for each office. requesting formal bids: GSA selected the best offer and
negotiated with the lessor on acceptable lease terms. According to Census managers, Census was



I	 The   ELCOs conducted the address canvassing and group quarters validation operations to provide information
    used by Census to deliver questionnaires and send enumerators into the field during later operations. Address
    canvassing updated the Census Bureau's address and map database and was conducted between March and July
    2009; group quarters validation verified the location of group quarters nationwide and was conducted in September
    and October 2009. Generally. ELCOs covered the geographic areas of three or four individual LeOs.
!   The early local Census office in Puerto Rico that was used for address canvassing was included in the number of
    additional offices requiring renovations for use during 20 I 0 field operations.
3   GSA followed this tight schedule because offices had to be leased and renovated on time so that Census's
   contractors could install information technology and telecolllmunications equipment in preparation for each
   office's opening.
.t An SFO is a standard GSA lease form containing office space requirements. renovation costs, and the amounts for
   rent, tenant improvements. and operating costs. Its contents become part of an LeO's lease.

                                                           2
not involved in negotiations on the office leases. although it was consulted to approve
concessions to lease tenns (e.g.. fewer than three parking spaces for the LCO).


Solicitations for Maryland LCOs Yielded Few Bids per Office

For five out of the nine LCOs in Maryland. GSA's solicitations to prospective lessors only
                                                                                       5
generated one qualified bid, including the solicitation for the East Baltimore LC0 The La Plata
LCO received the most bids (three). Regional Census managers offered several possible
explanations for the lack of bidding on LCO leases. They explained that potential lessors,
particularly small-scale landlords. do not submit bids due to the complexity of the SFO. the
potential liability for not complying with SFO requirements. their inability to retain outside legal
counsel to review the SFO and assess risk. and their unwillingness to bid on a short-term lease
that may require significant tenant improvements. If only one bid was received per site, Census's
LCO deployment schedule allowed little time to conduct additional market surveys and send out
a second round of solicitations to attract additional qualified bids. In certain cases, the only
recourse was to move forward with the only bid received by GSA.

Significant Tenant Improvements Initially Paid by Lessors Could Have Deterred Bidders

Before occupying local offices. the Census Bureau usually required improvements such as
erecting walls, installing intrusion-detection systems. installing doors. and installing electrical
outlets. As shown in Table 1. 6 tenant improvements constituted the second largest expense for
most Maryland LCO leases-an average of 37 percent. 7 We did not analyze Census's space
requirements or the cost of the tenant improvements for each office. Therefore, we cannot assess
whether Census's space requirements or improvements were necessary. or whether some could
have been eliminated to reduce costs. However. the costs of the tenant improvements were
initially paid by the lessor and recouped only as part of the lease. 8 which may have deterred
potential lessors. particularly small-scale landlords 9




'The offices that received only one qualified bid were Ballimore Easl, CalOnsvilie. Easton. Frederick, and
  Rockville. For Baltimore East. the initial solicitation only generated one bid and during the subsequelll solicitation.
  there were two bids but only one was within the area of consideration.
6 Table I breaks out lease costs per office by shell renl. lenanl improvements. operaling costs. and Public Buildings
  Service (PBS) fee. The total cost of each office covers the dural ion of the lease. which ranges between t6 and 25
  months. GSA negotiated lease terms with lessors before making final awards and determined reasonable rent costs
  and tenant improvements. Shell rent represents the cost for the enveloping office space and excludes tenant
  improvements and operating costs: the PBS fee covers GSA's overhead expenses and is 5 percent of the total rent
  (shell rent, tenant improvements. and operating costs).
7 Tenant improvements for the Baltimore West LCO were paid by Census to GSA. which owns the building in
  which the office is located.
8 GSA prescribed a maximum tenant allowance in each occupancy agreement and none of the offices exceeded their
  respective amounts. According to regional managers. GSA detemlines rents for each area and the cost of tenant
  improvements. which are based on Census's office space requirements.
9 The leases in Maryland only ranged from 1610 25 months. depending on whether the office functioned as an
  ELCO first or simply as an LCO.

                                                           3
Table I. Rent per Local Census Office ill Mllryialld
LocaICensus                                                                                                  Average
Office                           Shell               Tenant      Operating                     Total          Monthly
!lease in months\                 Rent Imorovemenls                    Costs    PBS Fee         Cost             Cost"
Baltimore East 116\          $306,553              $182,190         $64,710      $27,673 l $581,126           $36320
Baltimore West 121\            088,093             c180,125         110,691               o  378,909           18043
Catonsvillel16l               387,972                 92,052          65,324      27,268 r-572,§16             33,683
Easton (16)                   236,000               184,269           28,000      22,413    ~~0,682            29.418
Frederick-t251                209,046               204,989           62,365      23,820 I . ~o.Q,220          20,009
La Plata 116\                 268,000               163,908           39360       23,563    494,831            30927
Laraol241                     129,108               196,740         133,847       22,930      r
                                                                                            482,625            20,109
Rockville 116\                237,626               157,592           78,936      23,708     491,86~ _        _31,1~
Towson 116\                   116,278               172,337           42,661      16,096 I 347372              20434
Source: U.S. Census Bureau                                                                                                I
'Total cost divided by number of months in the lease.
'Total includes shell rent plus costs for joint-use space within the building.

cTenant improvement costs were paid to GSA (the building owner), which hired contractors to complete

  the imnrovements.




Lack of Qualified Bids Contributed to the Proximity of Two Local Census Offices in
Baltimore

The Census Bureau originally planned to open an ELCO in East Baltimore and an LCO in West
Baltimore. 10 This LCO site placement would satisfy Census's criterion that, if possible, one local
Census office be placed in each congressional district. 11Like many other solicitations for Census
office space, the initial solicitation for the East Baltimore ELCO yielded only one bid. GSA
found that bid unreasonable because the lessor was requesting rent that was triple the amount of
other local rental space. With time to acquire the space running out in Census's ELCO
deployment schedule, the search for space in East Baltimore was halted.

The bureau decided to open an ELCO in West Baltimore after GSA recommended the use of
leased backfill space in that part of the city.12 egotiations with the lessor, from April to
September 2008, ultimately failed to result in a lease award because of problems with financing
tenant improvements, obtaining pennits, and securing a contractor to perform the improvements.
GSA subsequently recommended a second backfill space-this time in a GSA-owned building­
a few blocks away and within the same area of consideration. This office space, at 103 South
Gay Street, ultimately became the Baltimore West ELCO, opening a linle more than 2 months
behind schedule in March 2009.

The search for an LCO in East Baltimore was renewed in September 2008. After two rounds of
market surveys over the next several months, GSA sent out solicitations to two lessors and
received two bids. However, the propeny from one bidder was found to be outside the area of

10   Baltimore is divided into two areas of consideration. with Interstate 83 largely representing the boundary between
     the areas.
II   The offices were to be located in Maryland congressional districts 3 and 7. respectively.
12   Backfill space refers to vacant government space available 10 new tenants.


                                                             4

consideration specified by Census staff and. therefore. was not considered. The second bidder,
for the property at 250 South President Street. was awarded the lease contract in April 2009
because, according to GSA. the lessor met the solicitation's requirements, was the only viable
offeror, and proposed a fair and reasonable rental price. This office. which is approximately one­
half mile from the West Baltimore location. was opened in November 2009.

Census and GSA Should Address Issues Resulting in Few Acceptable Bids on Maryland
LCO Leases to Mitigate Challenges in Acquiring 2020 Census Space

Our findings suggest that both Census and GSA worked together and appeared to follow their
established procedures to search. solicit. and acquire office space in the time allowed per the
bureau's office deployment schedule. However. we suggest that Census and GSA address the
underlying issues that limited the number of bidders during this decennial census to mitigate
potential challenges in acquiring office space for the 2020 Census.

We are sending identical letters to Senators Barbara A. Mikulski and Benjamin L. Cardin and
Representatives John P. Sarbanes and Frank M. Kratovil. If I can be of further assistance, please
contact me at (202) 482-4661.


Sincerely.



~13~~
Todd J. Zinser




                                                 5

                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington, D.C. 20230


July 28, 20 I0

The Honorable Frank M. Kratovil
United States Representati ves
Washington. DC 20515

Dear Representative Kratovil:

This letter responds to your request for information regarding the leases of nine local Census
offices (LCOs) in the state of Maryland. In your March 10.2010. letter. you expressed concern
over the costs of the leases and requested that the Inspector General (OIG) of the General
Services Administration (GSA) and I look imo this matter. Specifically. you asked for (1) an
independent assessment of the nine Maryland LCO leases to determine if the Census Bureau's
requirements for office space were reasonable and (2) a review of GSA's criteria for procuring
office space to ensure that the most cost-effective properties were selected.

In response to your request, my staff conducted a survey assessing the Census Bureau's role in
acquiring office space for the LCOs and the associated costs. We spoke with managers from the
Philadelphia Regional Census Center. who are responsible for decennial operations in the state of
Maryland. and reviewed documentation on the nine LCOs.

Overall, the Census Bureau and GSA worked together and appeared to follow their established
procedures to search. solicit, and acquire office space in the time allowed per the bureau's office
deployment schedule. However. we suggest that Census and GSA address the underlying
issues- such as short lease periods. time constraints. and unique space requirements that limited
the number of bidders during this decennial census-to mitigate potential challenges in acquiring
office space for the 2020 Census. Specifically, we found that the Census Bureau worked with
GSA to search for and assess potential LCO sites. In Maryland, GSA's solicitations to
prospective lessors generated few bids within the areas delineated by the Census Bureau for
LCOs. The lack of prospective lessors coupled with Census's tight deployment schedule meant
that there were few choices for LCO sites and insufficient time to solicit additional bids. The
problems in receiving an adequate number of bids led. in part. 10 the location of two LCOs in
Baltimore approximately one-half mile apart. Our detailed results are provided below.

Since our oversight is limited to the Department of Commerce. we did not assess GSA's criteria
and process for selecting the most cost-effective properties. The GSA OIG is in the process of
reviewing these issues.

Background on Local Census Officcs (LCOs) and LeOs in Maryland

The Census Bureau operates 494 LCOs nationwide to manage its decennial census field
operations. In late 2008 and early 2009. the Census Bureau opened 15 I local Census offices,
known as early local Census offices (ELCOs). to update the address and map database and the
locations of group quarters nationwide. I After the locations of residences were updated, the
ELCOs were transitioned to LCOs to conduct the ten decennial field operations. Between August
and December 2009,344 additional LCOs were opened to conduct the ten decennial field
operations 1 In 2008 and early 2009. the Census Bureau opened three ELCOs in Maryland.
located in West Baltimore. Frederick. and Largo. The Census Bureau later opened additional
LCOs in Catonsville. Easton. La Plata, Rockville. Towson. and East Baltimore-bringing the
total number of local Census offices in Maryland to nine.

How LCOs Leases Were Acquired: Coordination Between the Census Bureau and GSA

The acquisition of LeOs relied on coordination between the Census Bureau and GSA. To begin
the process, Census Bureau staff selected the "area of consideration" for the site of the LCO
within the geographic area in which the LCO would manage field operations. In determining the
area of consideration. the Census staff was required to consider factors including a site's location
within a congressional district. the size of the area to be managed. proximity to package delivery
routes, and access to public transportation and restaurants. Once the staff selected an area of
consideration, GSA had to find a site for the LCO within this area. The Census Bureau also
provided space requirements and specifications for a generic LCO to help GSA estimate lease
costs.

After this infom1ation was provided. GSA had approximately 8 months to search for sites.
conduct market surveys, solicit bids. and negotiate and award leases.' These tasks were carried
out by GSA and Equis Corporation. a real estate services company hired to assist with local
office space acquisition. with some participation by Census. As part of the search for sites,
Census and Equis staff independently surveyed vacant commercial office space within the area
of consideration. Based on information from these surveys. Equis formulated a list of sites for
formal market surveys and then Census. Equis. and GSA staff met with lessors to assess the
properties' suitability. Sites were rated on criteria such as location, parking, interior amenities,
and safety features. The results of market surveys were used to generate suitable candidates to
receive solicitations.

After the parties agreed on suitable candidates. GSA sent out solicitations for offer (SFO) to
potential lessors for each office. requesting formal bids· GSA selected the best offer and
negotiated with the lessor on acceptable lease terms. According to Census managers, Census was



I	 The  ELeOs conducted the address canvassing and group quarters validation operations (0 provide infonnation
  used by Census to deliver questionnaires and send enumerators into the field during later operations. Address
  canvassing updated the Census Bureau's address and map database and was conducted between March and July
  2009; group quarters validation verified the location of group quarters nationwide and was conducted in September
  and October 2009. Generally. ELCOs covered the geographic areas of three or four individual LCOs.
2 The early local Census office in Puerto Rico thai was used for address canvassing was included in the number of
. additional offices requiring renovations for use during 2010 field operations.
, GSA followed this tight schedule because offices had to be leased and renovated on time so that Censuss
  contractors could install information technology and telecommunications equipment in preparation for each
  office's opening.
JAn SFO is a standard GSA lease form conlaining office space requirements. renovation costs. and the amounts for
  rent, tenant improvements. and operating costs. Its contents become part oran LCO's lease.

                                                         2
not involved in negotiations on the office leases. although it was consulted to approve
concessions to lease terms (e.g.. fewer than three parking spaces for the LCO).


Solicitations for Maryland LCOs Yielded Few Bids per Office

For five out of the nine LCOs in Maryland. GSA's solicitations to prospective lessors only
generated one qualified bid, including the solicitation for the East Baltimore LCO s The La Plata
LCO received the most bids (three). Regional Census managers offered several possible
explanations for the lack of bidding on LCO leases. They explained that potential lessors,
particularly small-scale landlords. do not submit bids due to the complexity of the SFO, the
potential liability for not complying with SFO requirements. their inability to retain outside legal
counsel to review the SFO and assess risk. and their unwillingness to bid on a short-term lease
that may require significant tenant improvements. If only one bid was received per site, Census's
LCO deployment schedule allowed little time to conduct additional market surveys and send out
a second round of solicitations to attract additional qualified bids. In certain cases. the only
recourse was to move forward with the only bid received by GSA.

Significant Tenant Improvements Initially Paid by Lessors Could Have Deterred Bidders

Before occupying local offices. the Census Bureau usually required improvements such as
erecting walls. installing intrusion-detection systems. installing doors, and installing electrical
outlets. As shown in Table 1,6 tenant improvements constituted the second largest expense for
most Maryland LCO leases-an average of37 percen1. 7 We did not analyze Census's space
requirements or the cost of the tenant improvements for each office. Therefore, we cannot assess
whether Census's space requirements or improvements were necessary. or whether some could
have been eliminated to reduce costs. However. the costs of the tenant improvements were
initially paid by the lessor and recouped only as part of the lease. s which may have deterred
potential lessors. particularly small-scale landlords 9




, The offices thaI received only one qualified bid were Baltimore East, Catonsville. Easton. Frederick. and
  Rockville. For Baltimore East. the initial solicitation only generated one bid and during the subsequent solicitation,
  there were two bids but only one was within the area of considerali on.
6 Table I breaks out lease costs per oft-ice by shell rent. tenant improvements. operating costs. and Public Buildings
  Service (PBS) fee. The total cost of each office covers the duration of the lease, which ranges between 16 and 25
  momhs. GSA negotiated lease terms with lessors before making final awards and determined reasonable rent costs
  and tenant improvements. Shell rent represents the cost for the enveloping office space and excludes tenant
  improvements and operating costs: the PBS fee covers GSA's overhead expenses and is 5 percent of the lmal rent
 (shell rent. tenant improvements. and operating costs).
7 Tenant improvements for the Baltimore \Vest LCO were paid by Census to GSA. which owns the building in
    which the office is located.
8 GSA prescribed a maximum tenant allowance in each occupancy agreement and none of the offices exceeded their
  respective amounts. According to regional managers. GSA detennines rents for each area and the cost of tenant
  improvements. which are based on Census's office space requirements.
9 The leases in Maryland only ranged from 16 to 25 months. depending on whether the office functioned as an
    ELCO first or simply as an LCO.

                                                           3
Table I. Relit per Local Cells US Office ill Mllryialld
Local Census                                                                                                 Average
Office                            Shell          Tenant         Operating                         Total       Monthly
(lease in months)                 Rent     Improvements            Costs        PBS Fee           Cost           Cost"
Baltimore East (16)           $306,553              $182,190         $64,710     $27,673 I $581126            $36,320
Baltimore West (21)             "88,093             '180,125         110,691           0    378.909            18.043
Catonsville (16)               387,972                 92,052          65,324     27,268 L 572.616             33683
Easton (16)                    236,000               184,269           28,000     22,413    470.682            29,418
Frederick (25)                 209,046               204,989           62,365     23,820 l 500.220             20.009
La Plata (16)                  268,000               163,908           39360      23,563    494 831            30,927
Largo (24)                     129,108               196,740         133,847      22,930    r
                                                                                            482.625            20,109
Rockville (16)                 237,626               157592            78936      23,708    497.862            31,116
Towson (16)                    116,278               172,337           42,661     16,096 I 347372              20434
Source: U.S. Census Bureau
• Total cost divided by number of months in the lease.
b Total includes shell rent plus costs for joint·use space within the building.
'Tenant improvement costs were paid to GSA (the building owner). which hired contractors to complete
   the imorovements.



Lack of Qualified Bids Contributed to the Proximity of Two Local Census Offices in
Baltimore

The Census Bureau originally planned to open an ELCO in East Baltimore and an LCO in West
Baltimore. 10 This LCO site placement would satisfy Census's criterion that, if possible, one local
Census office be placed in each congressional district. II Like many other solicitations for Census
office space, the initial solicitation for the East Baltimore ELCO yielded only one bid. GSA
found that bid unreasonable because the lessor was requesting rent that was triple the amount of
other local rental space. With time to acquire the space running out in Census's ELCO
deployment schedule, the search for space in East Baltimore was halted.

The bureau decided to open an ELCO in West Baltimore after GSA recommended the use of
leased backfill space in that part of the city.12 egotiations with the lessor. from April to
September 2008, ultimately failed to result in a lease award because of problems with financing
tenant improvements, obtaining permits, and securing a contractor to perform the improvements.
GSA subsequently recommended a second backfill space-this time in a GSA-owned building­
a few blocks away and within the same area of consideration. This office space, at 103 South
Gay Street, ultimately became the Baltimore West ELCO, opening a little more than 2 months
behind schedule in March 2009.

The search for an LCO in East Baltimore was renewed in September 2008. After two rounds of
market surveys over the next several months, GSA sent out solicitations to two lessors and
received two bids. However, the propeny from one bidder was found to be outside the area of

10   Baltimore is divided into two areas of consideration. with Interstate 83 largely representing the boundary between
     the areas.
II   The offices were to be located in Maryland congressional districts 3 and 7. respectively.
12   Backfill space refers to vacant government space available to new tenants.


                                                            4
consideration specified by Census staff and. therefore. was not considered. The second bidder,
for the property at 250 South President Street. was awarded the lease contract in April 2009
because. according to GSA. the lessor met the solicitation's requirements, was the only viable
offeror, and proposed a fair and reasonable rental price. This office, which is approximately one­
half mile from the West Baltimore location. was opened in November 2009.

Census and GSA Should Address Issues Resulting in Few Acceptable Bids on Maryland
LCO Leases to Mitigate Challenges in Acquiring 2020 Census Space

Our findings suggest that both Census and GSA worked together and appeared to follow their
established procedures to search, solicit. and acquire office space in the time allowed per the
bureau's office deployment schedule. However. we suggest that Census and GSA address the
underlying issues that limited the number of bidders during this decennial census to mitigate
potential challenges in acquiring office space for the 2020 Census.

We are sending identical leners to Senators Barbara A. Mikulski and Benjamin L. Cardin and
Representatives John P. Sarbanes and C.A. Dutch Ruppersberger. If! can be of further
assistance, please contact me at (202) 482-4661 .


Sincerely,



r~)~
Todd J. Zinser




                                                 5

